<html>
<title> - IMPLEMENTATION OF THE INTERETHNIC ADOPTION AMENDMENTS</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]




 
          IMPLEMENTATION OF THE INTERETHNIC ADOPTION AMENDMENTS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 15, 1998

                               __________

                           Serial No. 105-111

                               __________

         Printed for the use of the Committee on Ways and Means




                     U.S. GOVERNMENT PRINTING OFFICE
63-768 CC                    WASHINGTON : 2000



                      COMMITTEE ON WAYS AND MEANS

                      BILL ARCHER, Texas, Chairman
PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
BILL THOMAS, California              FORTNEY PETE STARK, California
E. CLAY SHAW, Jr., Florida           ROBERT T. MATSUI, California
NANCY L. JOHNSON, Connecticut        BARBARA B. KENNELLY, Connecticut
JIM BUNNING, Kentucky                WILLIAM J. COYNE, Pennsylvania
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM McCRERY, Louisiana               JIM McDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. McNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHILIP S. ENGLISH, Pennsylvania      KAREN L. THURMAN, Florida
JOHN ENSIGN, Nevada
JON CHRISTENSEN, Nebraska
WES WATKINS, Oklahoma
J.D. HAYWORTH, Arizona
JERRY WELLER, Illinois
KENNY HULSHOF, Missouri
                     A.L. Singleton, Chief of Staff
                  Janice Mays, Minority Chief Counsel
                                 ------                                

                    Subcommittee on Human Resources

                  E. CLAY SHAW, Jr., Florida, Chairman
DAVE CAMP, Michigan                  SANDER M. LEVIN, Michigan
JIM McCRERY, Louisiana               FORTNEY PETE STARK, California
MAC COLLINS, Georgia                 ROBERT T. MATSUI, California
PHILIP S. ENGLISH, Pennsylvania      WILLIAM J. COYNE, Pennsylvania
JOHN ENSIGN, Nevada                  WILLIAM J. JEFFERSON, Louisiana
J.D. HAYWORTH, Arizona
WES WATKINS, Oklahoma

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.




                            C O N T E N T S

                              ----------                              
                                                                   Page
Advisory of September 8, 1998, announcing the hearing............     2

                               WITNESSES

U.S. Department of Health and Human Services, Hon. Olivia A. 
  Golden, Ph.D., Assistant Secretary, Administration for Children 
  and Families...................................................    14
U.S. General Accounting Office, Mark V. Nadel, Ph.D., Associate 
  Director, Income Security Issues, Health, Education, and Human 
  Services Division..............................................    39
                                 ------                                
Bartholet, Elizabeth, Harvard Law School.........................   107
Barth, Richard P., University of North Carolina..................    70
Kennedy, Randall, Harvard Law School.............................    81
Metzenbaum, Hon. Howard..........................................    34
Murphy, Patrick T., Cook County, Illinois, Public Guardian.......   116
National Council for Adoption, William L. Pierce.................   144
North American Council on Adoptable Children, Joe Kroll..........    92
Simon, Rita J., American University..............................    48

                       SUBMISSIONS FOR THE RECORD

American Public Human Services Association, Betsey Rosenbaum, 
  statement......................................................   163
Child Welfare League of America, Inc., National Council of Latino 
  Executives, New York, NY, Elba Montalvo, statement and 
  attachment.....................................................   169
Illinois Department of Children and Family Services, statement...   179
Institute for Black Parenting, Inglewood, CA, Zena Oglesby, Jr., 
  statement......................................................   185


         IMPLEMENTATION OF THE INTERETHNIC ADOPTION AMENDMENTS

                              ----------                              


                      TUESDAY, SEPTEMBER 15, 1998

                  House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:55 a.m., in 
room B318, Rayburn House Office Building, Hon. E. Clay Shaw, 
Jr. (Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.001
    
    [GRAPHIC] [TIFF OMITTED]63768A.002
    
    Chairman Shaw. As we go into the hearing this morning, I 
would like to state the intention of the Chair. The intention 
of the Chair is to attempt to conclude this hearing by about 20 
after 12:00. If I fail in doing so, I will simply recess until 
approximately 1:30 or 1:45. The purpose of that is that there 
is a meeting that the Republican Members here are required to 
go to, but I hope that we can conclude the meeting.
    I will ask all of the witnesses to summarize their 
testimony as best they can. I will strictly adhere to the five 
minute rule. I don't want my instructions to in any way 
minimize the importance of this hearing as it is something that 
the committee worked on very hard in a bipartisan manner with 
regard to a very important subject.
    Our goal in this hearing is straight forward: We aim to 
find out if the provisions of the 1996 Interethnic Placement 
legislation are being aggressively implemented. We want to know 
if the State laws and administrative guidance are consistent 
with the 1996 statute, whether States are actually putting into 
practice the policies that should be reflected in their 
statutes and administrative documents and whether the 
Department of Health and Human Services is doing everything 
possible to implement this law.
    Finally, although this issue may be a bit premature, we 
want to know whether there is concrete evidence that the 
barriers to interethnic adoption are actually falling. There is 
no more important evidence on this goal than data on the 
comparative lengths of time white, black, and Hispanic children 
wait to be adopted. There still seems to be some lingering 
confusion about the meaning of the law we passed in 1996. Thus, 
I want to reiterate for the record that the statute is actually 
quite clear: As a general principle of foster care and adoption 
placements, considerations of race, color, and national origin 
are now illegal. There is a very slight--and I emphasize very 
slight--exception to this prohibition. The exception is that in 
a particular individual case, race, color and national origin 
can be considered if there is a compelling Government interest. 
The only compelling Government interest is that race or color 
matching would be in the best interests of the child. This is a 
very strict test and can be met in only exceptional cases. In 
its 1997 administrative memorandum on this provision, HHS 
listed only one situation in which race matching was clearly 
justifiable--in the adoption of an older child who stated a 
clear preference for the same race parents.
    I might say the underlying provision here is to get these 
kids out of foster care, where you have loving families that 
are anxious to bring them into their families. Thus, regardless 
of one's views about race or color matching, the law says it is 
illegal. So we are here to promote full and vigorous 
implementation of the law.
    Before we turn to our witnesses, I want to make one 
additional point. Minority children spend far too long in 
foster care. We have very good data on this point, some of 
which will be reviewed by our distinguished witnesses today. In 
fact, Professor Barth says that in his studies it shows that 
black children in California stay in foster care up to four 
times longer than white kids. This is a tragedy and a travesty. 
I have long been committed to attacking this problem of unequal 
treatment of minority children in State custody, and after 
reading today's testimony I am even more strongly committed to 
doing everything I can to shorten their stay in foster care.
    Can anyone here imagine a worse fate for a little toddler 
than to be confined to foster care for four or five years and 
during that time to live in three or four different families? 
Particularly when you know that there are families out there 
that are anxiously awaiting to adopt kids just exactly like 
them. But there is something I don't understand. Where are the 
Nation's powerful and normally vociferous children's advocates 
on this particular issue? I want advocates to take this 
challenge seriously. We should be condemning anyone who 
supports race matching and spending a substantial part of your 
time and money fighting those who would keep these children in 
foster care.
    In my opinion, there is no clearer or more important issue 
on the Nation's social policy agenda than fighting to ensure 
that children, including minority children, have the privilege 
of being adopted.
    [The opening statement and attachment follow:]


    [GRAPHIC] [TIFF OMITTED]63768A.003
    
    [GRAPHIC] [TIFF OMITTED]63768A.004
    
    [GRAPHIC] [TIFF OMITTED]63768A.005
    
    [GRAPHIC] [TIFF OMITTED]63768A.006
    
    [GRAPHIC] [TIFF OMITTED]63768A.007
    
    [GRAPHIC] [TIFF OMITTED]63768A.008
    
    Chairman Shaw.
    Mr. Levin.
    Mr. Levin. Thank you, Mr. Chairman. As you mentioned, we 
have some time constraints here. On your side you'll have to be 
gone after 12:20, I think you said. We have and I have some 
scheduling problems on legislative matters after that. So for 
the sake of saving time, let me just enter my statement in the 
record and simply say that I hope we'll have a good discussion 
here today. There are differing points of view, but I don't see 
the need for us to have any kind of an adversarial atmosphere 
here.
    I think the goal here is very common. I think we all share 
it. There may be differing perspectives as to how to reach it, 
but there surely is a common bond here. I hope we can proceed 
with that spirit. I ask that my full statement be entered into 
the record.
    Chairman Shaw. Without objection.
    [The opening statement follows:]

    [GRAPHIC] [TIFF OMITTED]63768A.009

    
    Chairman Shaw. I appreciate that. I concur in your 
statement.
    As our first witness, from the U.S. Department of Health 
and Human Services, a friend of this committee, Dr. Olivia 
Golden, who is Assistant Secretary of the Administration for 
Children and Families.
    Dr. Golden, welcome.

STATEMENT OF HON. OLIVIA A. GOLDEN, PH.D., ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
                   HEALTH AND HUMAN SERVICES

    Ms. Golden. Thank you. In the interest of time, my long 
statement is in the record. I'll read a brief one.
    Chairman Shaw. All of the statements without objection, 
full statements, will be placed into the record. Thank you.
    Ms. Golden. Mr. Chairman and members of the subcommittee, I 
am pleased to appear before you to discuss the implementation 
and enforcement of the Multiethnic Placement Act of 1994 as 
amended by the Interethnic Placement provisions of 1996. I am 
joined today by David Garrison, Acting Director of the Office 
for Civil Rights, and Dr. Carol W. Williams, Associate 
Commissioner for the Children's Bureau.
    We are proud that this administration has been able to work 
with the Congress and with important leadership in this 
committee to pass critical adoption and foster care 
legislation. Working together we have enacted laws that make 
the health and safety of children our first consideration. We 
have put in place a legal framework that encourages timely 
decision making in the adoption and foster care systems. We 
have begun to tear down the many barriers to adoption, 
including race-based discrimination that stands in the way of 
placing children in permanent homes. We are firmly dedicated to 
eradicating race-based discrimination.
    While the important work of implementing the Multiethnic 
Placement Act continues, a great deal has changed since its 
enactment in 1994. For example, when the Multiethnic Placement 
Act was enacted, 29 States and the District of Columbia had 
laws or policies that allowed race-based discrimination in 
foster care and adoption placements. Today as a result of that 
legislation and cooperative work with this department, States 
have moved away from these race-based decisions, meaning that a 
child no longer needs to go through additional months of 
waiting while workers seek a family of the same race when a 
family of a different race is ready and able to adopt.
    Twenty-nine compliance reviews have been conducted by the 
Office for Civil Rights, OCR, since August 1996. For example, 
as a result of one review conducted in five counties in 
Florida, discriminatory practices found in one county are being 
corrected. Children in Florida are now being placed in homes 
within their county of residence more frequently and the time 
children wait for placement has been shortened.
    Technical assistance provided to at least 40 States has 
resulted in the revision of countless regulations, policies, 
and training curricula that guide the work of child welfare 
professionals and has prompted the retraining of many public 
and private agency workers. The Secretary has personally 
written to all 50 governors urging their leadership in these 
critical endeavors. She has emphasized that we need their 
assistance in moving forward with the complex and important 
next phase of implementation, gaining full compliance with the 
provisions of these laws by individual social workers, 
volunteers, and supervisors who make key decisions affecting 
the placement of specific children.
    As these four examples demonstrate, we have made important 
strides. But there is much that remains to be done. The average 
age of the 110,000 children who are in foster care and waiting 
to be adopted is between seven and eight years old. Their 
average length of stay in foster care is almost four years. We 
simply cannot ask these children to wait even a moment longer 
than necessary to enjoy the love and care of a family. This is 
why we must continue our work to end, in practice as well as in 
policy, discrimination that causes children to remain in the 
impermanence of foster care. This will require not only our 
ongoing commitment at the Federal level, but leadership and 
dedication on the part of State and local officials with direct 
responsibility for the administration of child welfare programs 
across this country.
    Now I am pleased to provide a more detailed overview of the 
department's multi-pronged strategy to implement the 
Multiethnic Placement Act and interethnic provisions. My 
written testimony provides much more detail on these 
strategies. First, I would like to address policy guidance. 
Within six weeks of the passage of the Multiethnic Placement 
Act in 1994, the department issued an information memorandum 
summarizing the new law and transmitting a copy of its text. 
This was followed several months later with the publication of 
guidance in the Federal Register. Consistent with the Supreme 
Court's Adarand decision and with the Chairman's summary in the 
opening, our guidance restricted consideration of race to 
exceptional case-specific circumstances only, a very strict 
interpretation of the law.
    The department also issued guidance to the States on the 
act's requirements relating to diligent recruitment. Beginning 
in October, 1995, States were required to amend their title IV-
B child and family services plans to address the steps they 
will take to recruit perspective foster and adoptive families 
who reflect the racial and ethnic diversity of children needing 
placements.
    When the Interethnic Placement provisions were enacted in 
August 1996, the department reviewed the new law's impact on 
the ongoing efforts to prevent race or ethnicity-based delays 
or denials of placements. It was determined that while the 
changes were significant, the basic issues of State law and 
policy had been addressed in the department's initial review. 
The 1996 provisions affirmed the department's strict 
interpretation and clarified Congress's intent to eliminate 
completely delays in placement where they were in any way 
avoidable. Basic information about the 1996 Interethnic 
Placement provisions was transmitted to the States in November 
1996, and more detailed guidance in June of 1997.
    In addition, I am pleased to announce today that a notice 
of proposed rulemaking on child welfare monitoring that further 
implements the financial penalty provisions of the 1996 
Interethnic Placement law will be published in the Federal 
Register this coming Friday, September 18.
    The second key area of our implementation strategy has been 
providing effective training and technical assistance. For 
example, in Illinois and Missouri, the department has alerted 
State officials proactively to provisions of new laws or bills 
that contain provisions in violation of the Multiethnic 
Placement Act and Interethnic Placement provisions. As a 
result, these statutes have been corrected or repealed.
    The third part of our implementation strategy, is 
conducting monitoring and compliance reviews. The Department of 
Health and Human Services has developed three procedures for 
monitoring compliance with the Multiethnic Placement Act. 
First, ACF's child and family services review includes the 
State's self assessment, followed by an on-site ACF review, 
including interviews and examination of case records. If ACF's 
review suggests potential non-compliance with MEPA, OCR will be 
notified so a more in-depth investigation can be undertaken.
    Second, the OCR investigates complaints by individuals who 
believe they have been victims of discrimination. Third, OCR 
also conducts periodic compliance reviews, reviews of the 
policies and practices of recipients of HHS funds to determine 
whether they are in compliance with the law.
    We have accomplished much in the past few years. Building 
on these actions, our work in the coming years must focus on 
collaboration with States and others to change frontline 
practice. This work will be challenging, but it is tremendously 
important if we are to give the thousands of children awaiting 
adoptive homes a chance to begin new lives as part of a new 
family.
    Thank you for the opportunity to testify before the 
subcommittee. I would be pleased to answer any questions you 
may have.
    [The prepared statement follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.010
    
    [GRAPHIC] [TIFF OMITTED]63768A.011
    
    [GRAPHIC] [TIFF OMITTED]63768A.012
    
    [GRAPHIC] [TIFF OMITTED]63768A.013
    
    [GRAPHIC] [TIFF OMITTED]63768A.014
    
    [GRAPHIC] [TIFF OMITTED]63768A.015
    
    [GRAPHIC] [TIFF OMITTED]63768A.016
    
    [GRAPHIC] [TIFF OMITTED]63768A.017

    
    Chairman Shaw. Thank you, Dr. Golden.
    Mr. Camp.
    Mr. Camp. Thank you, Mr. Chairman.
    Good to see you, Dr. Golden. I particularly was struck by 
your testimony which said that you wanted to end discrimination 
which allows children to languish in foster care. We worked 
very hard together on the Adoption and Safe Families Act, which 
was about that.
    But one of the major innovations in the 1996 legislation 
was the imposition of stiff financial penalties on any State 
that violated the prohibition on race matching. I understand 
from your testimony no penalties have been issued against any 
States since 1996. Is that correct?
    Ms. Golden. What we have done is forced changes in the 
activities of States. The Congress in laying out the penalty 
process included a corrective action period in the title IV-E 
penalty process. The civil rights penalty process also includes 
corrective action. So our first step is to make change happen. 
That is what we have done. We have not gotten to the penalty 
aspect because we haven't had resistance to making the changes.
    Mr. Camp. Has there been any warning of penalty or 
threatening of penalty?
    Ms. Golden. I don't think there have been formal actions, 
formal letters. Certainly one of the things that leads people 
to comply is that they know it is against the law and that 
there are penalties. But so far as I know, there haven't been 
any formal letters.
    Mr. Camp. In February of this year, the Boston Globe on 
February 25th published an editorial suggesting that Rhode 
Island violated the intent of Federal law by delaying the 
adoption of a four year old boy because of racial 
considerations. According to the article, which without 
objection I would like to place in the record of this hearing.
    Chairman Shaw. Without objection.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED]63768A.018
    
    Mr. Camp. The boy was removed from a mother who was drug-
plagued. I will quote. ``His drug-plagued mother, when the 
child was 18 months old, for three years he had been in the 
care of a single foster family who has been trying to adopt 
him. Once the parental rights were terminated and the child was 
freed for adoption, it appears that a second cousin stepped 
forward to adopt and the case is currently still unresolved.''
    I wondered if you were aware of this particular case. It 
has gotten some note in the press. When cases like this come 
forward, does HHS go out and try to investigate the State's 
potential abuse of Federal law in this situation?
    Ms. Golden. I can tell you a little bit about that case and 
then perhaps the broader issues. The Office for Civil Rights 
did in fact investigate a complaint in that case and did not in 
that specific case find a violation. As you know, there was a 
set of issues where this State was attempting to identify the 
appropriate placement for a child. My understanding is that the 
State has in fact supported the foster family's petition to 
adopt and it's currently before the courts.
    Broadly, I think what I----
    Mr. Camp. Is this one of the cases where you have asked for 
corrective action or has your department opened a file in this 
matter?
    Ms. Golden. My memory of that case is that that's a case 
where the Office for Civil Rights in their complaint 
investigation did not find practices that involved looking at 
race. You have noted that there were allegations, but that in 
fact when they investigated, they did not find such practices.
    But you have raised an important issue. It does sometimes 
happen that OCR will look at a particular case and they will 
see practices that are wrong. In that case, they will 
absolutely require corrective action. In my long testimony I 
describe a case in Michigan in which a private agency took 
action to dismiss individual employees in addition to agreeing 
to a change in practice.
    So I think you are right to note that when we look at a 
particular complaint, it is very important for us not only to 
look at that one situation, but to identify practices that 
could be corrected.
    Mr. Camp. There is another situation. Judge Mason in 
Maryland ordered a white woman who had been caring for a two-
year old black child whose sibling was murdered by the 
biological mother to return the child to the mother. According 
to the Washington Post, which wrote an editorial on this on 
January 3 of this year, one reason for the judge's decision was 
that the foster mother was white while the biological mother is 
African-American. In other words, the judge used race-matching 
as one of the justifications for removing the child from a home 
where he had lived since he was four months old and return the 
child to a mother who had murdered another child, a sibling, 
which was one of the issues we addressed in our legislation.
    So if the judge said that race-matching was one of the 
criteria, in your opinion would that have been legal under the 
1996 Interethnic provision? I would also ask has the department 
taken any action against the State of Maryland, either by 
opening a file or beginning a corrective action as you 
described, or any other action?
    Ms. Golden. Well, I think you are referring to the case 
that the press has been summarizing as the Pixley case?
    Mr. Camp. Yes.
    Ms. Golden. Yes. Obviously, as you know because we have 
worked so much together, I really share your concerns both 
about safety and about permanence. The newspaper coverage has 
certainly suggested a lot of troubling questions in that case.
    In terms of jurisdiction, the MEPA legislation as amended 
in 1996 covers entities that receive money from the Federal 
Government, for example, a State, or an agency that gets 
dollars from the Federal Government to engage in foster care or 
adoption placements. There actually wasn't such an entity 
involved in this case. There was an informal arrangement 
between the mother and the person who cared for the child. So 
from our look at it, it doesn't appear that there is 
jurisdiction.
    Mr. Camp. All right. I see my time is almost up. Thank you, 
Dr. Golden.
    Chairman Shaw. Mr. Levin.
    Mr. Levin. I thank you, Mr. Chairman. Let me just ask you 
if you would, and welcome, to just indicate what the agency is 
doing in cooperation with States to help move children, 
especially minority children, into permanent adoptive status. 
So just tell us quickly what is going on here?
    Ms. Golden. I am glad you asked that question because I 
think there is a great deal going on. Congressman Camp and I 
were just talking a little bit about how central that goal is, 
and it's one that of course we worked with the committee on in 
the Adoption and Safe Families Act.
    I would say that there's a whole array of things going on. 
The enforcement of MEPA and the Interethnic Placement 
provisions are a piece of that. One important thing is that 
States are moving to comply with the MEPA policy provisions and 
they are passing State legislation to comply with the 
provisions in the Adoption and Safe Families Act that speed up 
adoption and enable children to move more quickly through the 
system. For example, States are dealing with provisions 
relating to the termination of parental rights.
    A second area where we have been working a lot with States 
on just shifting the focus to adoption. One of the things that 
used to happen, and that the Adoption and Safe Families Act 
makes clear is not appropriate, is that children would languish 
in temporary settings because nobody was thinking about the 
fact that a return home might not be safe. Consequently, no 
action was taken for several years. So we have been working a 
lot on how you go about planning, contingent planning, finding 
placements for the children. We have been working on numbers. 
We have been working with the States on baseline numbers for 
the adoption incentives provisions. We are expecting that soon 
we will be able to come back to you and tell you how much 
adoption has increased for special needs children and, in 
particular, for minority children.
    Then the MEPA enforcement has been an important part. As my 
testimony noted, about 29 States used to have discriminatory 
policies; they don't now. We have also been doing a lot on 
technical assistance, such as conferences in the States. Our 
National Resource Center on Legal and Court Issues has been 
providing materials. We have been working on recruitment. We 
have been trying to provide technical assistance in that area.
    I guess just one last thing to mention, because it's really 
important in all adoptions and comes up especially in 
transracial ones, we have also been working on an issue I hear 
a lot from adoptive families, which is support for families 
after the legal adoption. Finally, we have been trying to hold 
States accountable because they are the ones with the key 
operational responsibility in all these areas.
    Mr. Levin. Let me ask you, later Professor Kennedy is going 
to testify. He refers to a department memorandum. There may be 
several here because I also have a document from the GAO and 
your responses. But he says that in the department memorandum, 
I'm not quite sure, I don't think that's the GAO response 
itself. But anyway, he says the department writes and quotes 
that adoption agencies must consider all factors that may 
contribute to a good placement decision for a child. That may 
affect whether a particular placement is in the best interest 
of the child. Then three dots, so there's something in between. 
Then it goes on, ``In some instances, it is conceivable that 
for a particular child race, color, or national origin would be 
such a factor.'' Then it goes on to say that this statement 
flies in the face of Congress's decision to remove race, color, 
national origin from the menu of possible items that the agency 
may lawfully take into account.
    Do you want to comment on that?
    Ms. Golden. Sure. Let me comment in part again by noting 
that I think Chairman Shaw gave a good overview of just what 
our guidance says at the beginning, which is that our guidance 
is clear and I think consistent with the law and the 
Constitution. As GAO notes, our interpretation was seen as very 
strict until Congress in 1996 made the change to confirm that 
that was the accurate interpretation.
    What our guidance says is that there can be no delay or 
denial of placement based on race, that there can be no 
discrimination, and that there can be no routine consideration 
of race. You can't ever have it as something that you routinely 
look at in all circumstances. What you can do, because the best 
interests of the child govern placement, you should never make 
a placement that is against a child's best interest, is that 
there can be narrow particular examples where race is a factor. 
As the Chairman noted, our guidance makes clear that we expect 
those to be infrequent, where considering race in some way 
would be necessary to a placement that's in the best interest 
of the child.
    I think if you read the guidance and our technical 
assistance and our work with States, it is clear that that's a 
narrow exception and that our message is that there can be no 
discrimination, no delay or denial, and no routine 
consideration of race.
    I think, just to go back to what you said at the beginning 
about our shared perspective on this, I think there is just 
very broad agreement that there is such urgency to moving 
children into homes that will be good for them, that we just 
can't afford to miss the opportunity to use any families that 
are ready to provide a loving home to a child.
    Mr. Levin. Thank you.
    Chairman Shaw. I have just a couple of questions. Dr. 
Golden, first of all I want to say I am very pleased to hear 
that your regulations are going to be unveiled this Friday. I 
look forward to being able to review them.
    Ms. Golden. Thank you.
    Chairman Shaw. Secondly, have we seen the effect of this 
legislation taking hold across the country and in terms of how 
long particularly minority kids are kept in foster care?
    Ms. Golden. That is a good question. I think what I would 
say is we only have bits of information now. We will have more 
in the future. I think what we have seen so far is changes in 
practice. We have seen some individual jurisdictions that have 
been keeping track. I think my testimony noted in fact in some 
counties in Florida where they changed practices and are noting 
more children being placed closer to home and shorter waiting 
times. So there are individual scattered examples.
    In terms of overall data, we now have, and again it's 
something that's thanks to a lot of historical commitment from 
this committee, we now have for the first time very solid 
national adoption and foster care data. So we have baseline 
information from that, but we don't really have trend data yet 
because we are really just at the point where we see what 
States, you know sort of see from all States really good 
adoption and foster care data. We will have that trend data 
over time.
    Chairman Shaw. Well I would hope that by the end of the 
next Congress that we should have that information available. 
Assuming I remain chairman of this committee, I would intend to 
call a hearing just to review strictly the results of what has 
happened.
    Do any of the other Members seek recognition?
    Mr. English. Mr. Chairman, I don't have a question, but I 
would like to yield my time to Mr. Camp.
    Mr. Camp. Thank you. Dr. Golden, I would just like to ask 
if it's your belief or your understanding that Federal law bans 
categorical discrimination on the basis of race, color or 
national origin in the placing of children in foster or 
adoptive homes.
    Ms. Golden. Yes. I mean I'm not sure, categorical 
discrimination meaning discrimination?
    Mr. Camp. Yes.
    Ms. Golden. Yes.
    Mr. Camp. Do you think the following policy statement is 
consistent with current law that in the adoption and foster 
care process, children of black ancestry must receive as a 
priority placement with black families? Is that consistent or 
inconsistent with current?
    Ms. Golden. To my knowledge that sounds like the kind of 
statement that we would tell people was not in compliance if it 
had priority or preference in it. Is there something we need to 
do in the way of action?
    Mr. Camp. Yes. Well one of my concerns is with grantees of 
the department that are receiving taxpayer funds. That 
statement was found just last week on the Web site of the North 
American Council on Adoptable Children. They are a current 
grantee of HHS, which would indicate to me that they have not 
gotten the message as to what current law is. I wondered if 
there was a process for informing them and also what maybe the 
process was for choosing those grantees because of this 
particular problem.
    Ms. Golden. Well I think you'll certainly have a chance to 
explore some of those issues, particularly with the witness 
representing them. We definitely engage in conversations and 
technical assistance whenever such an issue comes up. The law 
applies to organizations that are using the resources for 
adoptive and foster care placements.
    Mr. Camp. Certainly you would agree that Federal Government 
or taxpayer funding of an organization that advocated that 
policy would be a problem?
    Ms. Golden. Since I don't know the full story of the 
situation, it sounds as though we need to look at it and come 
back to you.
    Mr. Camp. The other concern I have----
    Chairman Shaw. If I might, if you'd yield for just a 
second.
    Mr. Camp. Yes, I'd be happy to.
    Chairman Shaw. I would ask that you submit for the record 
your finding in that regard.
    Ms. Golden. Okay.
    Mr. Camp. I am also concerned about another Web page, the 
National Adoption Information Clearinghouse, which is part of 
HHS. Also in its Web page refers to the 1994 law in kind of a 
passing reference but has no reference to the 1996 provisions. 
I am concerned about HHS's ability to fulfill its mandate 
without providing the kind of guidance and technical assistance 
to the States to implement those provisions.
    So I am concerned about the fact that in an appropriate 
place there is no reference to the legal appropriate practices 
regarding adoption and racial----
    Ms. Golden. I'll check. My understanding was that our 
guidance and information memorandum on the 1996 legislation as 
well as 1994 were up, not only on our Web site and on the OCR 
Web site, which they are up on, but were also on that Web site. 
But it sounds as though you have checked and haven't found 
them, so we need to go back and find out if it's a computer 
thing or what the issue is.
    Mr. Camp. If you could follow up on that I would appreciate 
it.
    Thank you, Mr. Chairman.
    Chairman Shaw. Thank you. If none of the other Members are 
seeking recognition, we thank you for being here. We would ask 
that any Members that have any questions that they wish to 
submit to the secretary do so, and we would ask that you submit 
answers in writing that will become part of the minutes of this 
hearing.
    Ms. Golden. Thank you very much.
    [Questions submitted to Ms. Golden, and her responses, 
follow:]
[GRAPHIC] [TIFF OMITTED]63768A.019

[GRAPHIC] [TIFF OMITTED]63768A.020

ZPERSONAL COMPUTER\J\063768-A768A*-005-*****-*****-Payroll No.: 
    73470 -Name: Pierce -Folios: 1-3 -Date: 4/17/00 -Subformat:C
hairman Shaw. It's a pleasure to have you with us.
    Our next panel includes an old friend of this subcommittee, 
Senator Howard Metzenbaum. Also, Mark Nadel is a Ph.D., 
Associate Director of Income Security Issues, Health, 
Education, and Human Services Division of the U.S. General 
Accounting Office; Rita Simon, Dr. Rita Simon, a professor at 
American University in Washington, D.C; Dr. Richard Barth, a 
professor at the University of North Carolina in Chapel Hill 
(who I believe that Dr. Haskins probably had a hand in because 
he's getting from the University of North Carolina); Professor 
Randall Kennedy from Harvard Law School, Cambridge, 
Massachusetts; and Joe Kroll, who is executive director of the 
North American Council on Adoptable Children, St. Paul, 
Minnesota.
    I would say to all the witnesses we have your full 
testimony which will be made a part of the record of this 
hearing.
    Senator Metzenbaum, you are unique in many ways, but you 
are most known to me as the only Senator that I have ever known 
that came back to undo his own legislation saying it's been 
misinterpreted, get rid of it, change it, and let's get on with 
getting kids out of foster care. Also, I know that you are a 
part-time resident of my congressional district. It is my 
pleasure to welcome you back to this committee.
    Senator Metzenbaum.
    Mr. Camp. Mr. Chairman, before we begin, if I could just 
express my gratitude for Senator Metzenbaum's work in this 
whole area of adoption.
    It's been a pleasure to work with you. I appreciate the 
valuable insight you have given this committee and also look 
forward to your testimony. Thank you.
    Thank you, Mr. Chairman.
    Mr. Camp. Senator.

STATEMENT OF HON. HOWARD METZENBAUM, A FORMER SENATOR FROM THE 
                         STATE OF OHIO

    Senator Metzenbaum. Let me say thank you for your comments. 
Let me also say I am everlastingly grateful to the chairman of 
this committee, to the ranking member of this committee and to 
all the other members of this committee for taking an interest 
in this subject, because I must confess that I don't know of 
any area of Government in connection with which I have been 
more frustrated than this one.
    In 1994, I thought I had achieved the objective by passing 
the Multiethnic Placement Act. I have probably been the author 
of maybe 30 pieces of legislation that have gone through the 
Congress. This was the only one that bore my name, the 
Metzenbaum Multi-Ethnic Placement Act. You came along two years 
later and repealed that act with my support. I came here and 
testified in support of that repeal. I was grateful to you for 
your leadership and for moving forward in order to really make 
the law work, to tighten it up and make it effective. So I 
thought that we had made the grade.
    The fact is, the law is there, but HHS isn't there. HHS has 
dawdled and doodled and sent out pieces of paper to the various 
State governments. But when it comes to enforcing the law, it 
hasn't been enforced. There hasn't been one State that's been 
called on the carpet for violating the law. The reality is I 
believe that almost every State is violating the law. Although 
I don't have evidence of that as a fact, but all the 
indications, the case in Rhode Island, the cases in Washington, 
the cases in other places in this country, certainly suggest 
it. I have a tremendous sense of frustration. I am so grateful 
that this committee has seen fit to conduct this hearing.
    Now the GAO asked HHS some questions. They sent out a list 
of about nine pages of questions. Carol Williams, who I think 
is the deputy director, replied. The first question: may public 
agencies allow adoptive parents to specify the race, color, 
national origin, ethnicity, or culture of children whom they 
are willing to adopt? A pretty simple question. The answer is 
no, they may not. But not as far as HHS is concerned. They took 
61 lines of gobbledygook, plain gobbledygook in order to answer 
that question. All those answers were phrased to limit the 
law's applicability.
    There's no member of the cabinet for whom I have more 
respect than Donna Shalala, but the reality is that this law 
isn't being enforced and those kids are still sitting out there 
in foster homes and some in orphan homes and aren't being 
adopted by parents who want to adopt them.
    There's another question that was answered. In a manner 
contrary to law, HHS told the GAO that any consideration of 
race or ethnicity must be done in the context of individualized 
decisions. Well of course. That would always be considered and 
that's where the discrimination always occurs. There hasn't 
been one action, not one letter to any governor or to any State 
agency saying that ``you are in violation'' or ``it appears 
that you are in violation and your Federal funding is 
threatened as a consequence thereof.'' HHS has sat back. Some 
of the people at HHS don't believe in the law. There are too 
many of them, I'm afraid. I am afraid too many of them are 
impacting upon the enforcement of this law.
    Now the GAO has pointed out they are making continued 
mailings to the States. That's good, fine. But until you rap 
the knuckles, until you say ``unless you shape up we are going 
to hold back two percent or three percent or five percent of 
your Federal funding from HHS,'' you are not going to get 
effective enforcement. You may have all the nice speeches that 
you want, the lady who just preceded me, made a nice speech, 
but the children are still sitting out there, not being 
adopted.
    The social workers continue to discriminate, while the kids 
remain in foster homes and in public institutions. The problem 
lies at the doorstep of HHS. Now the reality is that in this 
particular instance, you couldn't have had better support from 
the top of the administration. The President made a speech 
before my law was ever enacted. I think it was to a group of 
Black Baptist ministers in Florida indicating his strong 
support for the thrust of MOPA. But HHS does not do anything 
about it.
    Parade Magazine just had a big article called For the Love 
of Family, pointing out four families where there were multi-
racial adoptions. There was a small two-inch box in the article 
which said that for more information, write the National 
Council for Adoption. That small box which brought forth well 
over 10,000 responses, over 10 percent of which reported 
problems in attempting to adopt transracially.
    Mr. Chairman, your efforts in this regard are much 
appreciated. To HHS I say, ``you are failing to enforce the 
law.'' You should be ashamed. You ought to hang your head in 
shame because it's those little kids out there, those black 
kids are not getting the benefit of the legislation that you 
and I authored.
    To the social workers who are failing to follow the law, I 
say to them ``you are a disgrace to your profession'' because 
you are more concerned about this whole question of race and 
stuff than you are concerned about the children for whom you 
ought to have the real concern.
    To this committee I want to conclude by saying thanks for 
your leadership in amending the law and thanks for holding this 
hearing. You are a ray of sunshine in a governmental process 
loaded against thousands of black children much in need of a 
loving parental relationship. Thank you.
    [The prepared statement follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.021
    
    [GRAPHIC] [TIFF OMITTED]63768A.022
    
    Chairman Shaw. Thank you, Senator.
    Dr. Nadel.

 STATEMENT OF MARK V. NADEL, PH.D., ASSOCIATE DIRECTOR, INCOME 
    SECURITY ISSUES, HEALTH, EDUCATION, AND HUMAN SERVICES 
            DIVISION, U.S. GENERAL ACCOUNTING OFFICE

    Mr. Nadel. Mr. Chairman and members of the subcommittee, I 
am pleased to be here today to discuss the findings in our 
report which has been released today on the implementation of 
the Multiethnic Placement Act of 1994 and the 1996 legislation. 
This morning I will summarize our findings regarding the 
implementation of the 1994 act and regarding the implementation 
of the 1996 amendment, and finally, what remains to be done to 
better assure effective implementation.
    Our work examined implementation efforts by HHS and by the 
State of California in two of its counties, Alameda and San 
Diego. In implementing the 1994 act, HHS recognized that 
restricting racial placement decisions would require 
significant changes of child welfare agencies, and the 
department launched a major effort to provide policy guidance 
and technical assistance on the 1994 act. Between enactment and 
the effective date of the act, HHS provided the States with 
written guidance and technical assistance, which included 
training and a review of State policy and law to assure that 
States that were not in conformance completed corrective 
actions as the assistant secretary discussed.
    In terms of what came later, it is important to note that 
some States believe that HHS's guidance regarding the use of 
race was more restrictive than was required in the original 
Metzenbaum Act. California also began implementation efforts 
promptly. It provided counties with information on the Federal 
law, made necessary changes to State law, and worked on 
implementation with the association of county welfare 
directors.
    Turning now to the implementation of the 1996 amendment, we 
found that HHS was slower to revise its policy guidance and 
provided less help to the States than was the case after the 
1994 act. For example, it took three months to notify States of 
a change in Federal law even though the change was effective 
immediately. HHS provided policy guidance and some technical 
assistance, but not as much as previously. For example, it did 
not repeat the outreach and training to State officials, nor at 
the time of our review had it updated the monograph that it had 
issued on implementation of the 1994 act.
    I have talked about differences between 1994 and 1996, but 
there were some needed actions that HHS did not take either 
time. Although the department provided policy guidance, it did 
not provide a key step necessary to successful implementation--
practical guidance on changes in social work needed to make 
casework practice consistent with the act. It was not until May 
of 1998 when GAO voiced the concerns we had picked up from 
county officials and caseworkers that the department issued 
guidance in the form of our questions and their answers. This 
guidance clarified, for example, that public agencies cannot 
use race to differentiate between otherwise acceptable foster 
care placements, even if such a consideration does not delay 
placement.
    Our work on California's efforts to implement the 1996 
amendment indicated that the State also has been slow to 
undertake important activities. Although California began its 
efforts by notifying its counties of the 1996 amendment, it has 
not made the statutory or regulatory changes necessary for 
implementation.
    Officials at all levels of Government face three challenges 
as they continue to implement the amended act. The first 
challenge is for agencies to continue to change longstanding 
social work practices and the beliefs of some caseworkers. 
While some social workers told us that they welcomed the 
removal of race matching in Federal law, which they believe 
will make placement easier, the belief that race or cultural 
heritage is central to a child's best interest when making a 
placement is so inherent in social work theory and practice 
that a policy statement of the National Association of Social 
Workers still reflects this tenet, despite the changes in 
Federal law.
    The second challenge is for agencies to translate legal 
principles into practical advice for caseworkers. State program 
officials in California are struggling to understand the 
amended act in the context of casework practice issues. They 
are waiting for the HHS Children's Bureau or the Federal 
National Resource Centers to assist them in making the 
necessary changes to day to day casework practices. Currently, 
some caseworkers were unsure how and when, if at all, they are 
allowed to consider race in making placement decisions. Thus, 
the paucity of practical guidance contributes to continued 
uncertainty about allowable actions under the law.
    Finally, the third challenge we identified is the need for 
agencies to develop information systems to monitor compliance 
with the act. Developing such systems will be particularly 
difficult because neither the Federal administrative data in 
the Adoption and Foster Care Analysis and Reporting System, 
known as AFCARS, nor individual case files are likely to 
contain needed information related to placement decisions.
    But even if we had some better data on individual placement 
decisionmaking, analysis is going to be hampered by inherent 
difficulties in interpreting the results. For example, if we 
find an increase in the percentage of same-race adoptions, it 
could indicate the law is being flouted or it could indicate 
that the pool of black adoptive parents has increased due to 
successful placement efforts. We won't know unless we have 
better information on the pool of available parents.
    So without better data currently not available, we'll not 
be able to provide a more definitive assessment of the impact 
of this legislation. Mr. Chairman, this concludes my prepared 
statement. I'll be happy to answer questions later.
    [The prepared statement follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.023
    
    [GRAPHIC] [TIFF OMITTED]63768A.024
    
    [GRAPHIC] [TIFF OMITTED]63768A.025
    
    [GRAPHIC] [TIFF OMITTED]63768A.026
    
    [GRAPHIC] [TIFF OMITTED]63768A.027
    
    [GRAPHIC] [TIFF OMITTED]63768A.028
    
    [GRAPHIC] [TIFF OMITTED]63768A.029
    
    Chairman Shaw. Thank you, Dr. Nadel. I apologize, but we 
are going to have to recess for just a few minutes. As you have 
noticed, the Members have been going out to vote. I don't want 
to miss this vote either, so we'll recess for just a few 
minutes, whatever time it takes to get some of the Members back 
to start off with you, Dr. Simon.
    [Recess.]
    Mr. Camp [presiding]. Let's proceed.
    Dr. Simon.

    STATEMENT OF RITA J. SIMON, PH.D., PROFESSOR, AMERICAN 
                           UNIVERSITY

    Ms. Simon. Thank you. I am pleased to be here. I have 
studied transracial adoptees and their families for almost 30 
years. For example, I followed a cohort of families from 1971 
through 1992 in which I interviewed parents or my team of 
interviewers interviewed parents, birth children, and the 
transracial adoptees from the time the children were four years 
old until they were young adults who were mostly not living in 
their families' homes. The results of that study showed that 
the black children who were adopted and lived in white homes 
are aware of and comfortable with their racial identities. They 
are secure in their ties with their families. They are aware of 
black history. They were comfortable in their relationships 
with white and black people, and very scornful of being called 
oreos, as they were labeled by many of the people in the 
National Association of Black Social Workers. The label implies 
that they are black on the outside but that they have white 
psyches or white souls. They said that's just ridiculous. There 
are many ways of being black and African-American in this 
society. The notion that because they were reared in white 
families they were not really black was very insulting and 
hurtful to them.
    I want to emphasize that it is not only the research that I 
and my colleagues have done which have produced these findings, 
but all of the major empirical research that has been done on 
transracial adoption have shown that these children come out 
healthy, aware of their identities, and committed to their 
adoptive families. Even researchers such as Joyce Ladner, who 
in her book ``Mixed Families,'' says I was skeptical of the 
practice when I first went in to do the research, came out as 
an advocate. Ruth McRoy, who does not on a policy basis support 
transracial adoption, but her research findings do.
    The overall point is that the case for transracial adoption 
as a practice is based solidly on research. The case against 
transracial adoption, I'm sorry to say, is based on rhetoric 
and ideology. There are no systematic studies that show that 
transracial adoptions do not serve the children's best 
interests.
    Even public opinion data, and we have been collecting these 
data on a national basis since 1971, show that the American 
public, the black public and the white public, support 
transracial adoptions overwhelmingly. The last poll in 1997 
reported that 77 percent of the American public supported 
having children of one race adopted by a family of another.
    Now I know that your major focus is on what impact the 
Multiethnic Placement Act of 1996 is having. Let me say that 
over the past 30 years, I have testified in about 50 cases 
involving families who very often were foster parents who were 
allowed to take care of their black, in some instances Hispanic 
or Korean child for years and years. When the family went to an 
agency, a public agency and said you know, we have grown very 
attached to this child, we would now like to adopt him or her, 
that's when trouble began. The public agencies wanted to remove 
the black child from carring, stable home white.
    In addition, even though the act has been in effect since 
January 1, 1997, the number of phone calls that I have gotten 
and the number of requests that I have had to come and testify 
and describe my research has not in any way lessened. I was an 
expert witness in the Pixley case, and in the case that was 
referred to in Rhode Island. The judge in that courtroom said 
to me, ``You know, I will take race into account if I want to. 
There's nothing that will prevent me from taking race into 
account in that case.''
    I also testified in a case in St. Louis a few months ago 
where again, a white family had been allowed to take care of a 
little black child almost since birth. When they said they 
wanted to adopt, again, a distant relative from the Washington 
area came in and said no, I want the child. The State was 
supporting the right of that distant relative, years after the 
black child had been with the white parents and as far as the 
child was concerned, they were the only parents he knew.
    I am very concerned at the absence of data on what impact 
the current law might be having. And because I am concerned 
about the lack of systematic information I am presently 
conducting a survey. In the past couple of weeks I have sent 
out over 1,000 questionnaires to heads of public adoption 
agencies, private adoption agencies, attorneys who have made 
adoption matters their major focus, to family support groups 
and other relevant groups, to find out what is happening, 
specifically the questionnaire ask about the number of 
transracial adoptions that have occurred since the passage of 
the act, what obstacles have been encountered, the number of 
cases that are currently in the courts, and so forth. I am 
hoping to have those data in the next few weeks.
    Thank you very much.
    [The prepared statement follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.030
    
    [GRAPHIC] [TIFF OMITTED]63768A.031
    
    [GRAPHIC] [TIFF OMITTED]63768A.032
    
    [GRAPHIC] [TIFF OMITTED]63768A.033
    
    [GRAPHIC] [TIFF OMITTED]63768A.034
    
    [GRAPHIC] [TIFF OMITTED]63768A.035
    
    [GRAPHIC] [TIFF OMITTED]63768A.036
    
    [GRAPHIC] [TIFF OMITTED]63768A.037
    
    [GRAPHIC] [TIFF OMITTED]63768A.038
    
    [GRAPHIC] [TIFF OMITTED]63768A.039
    
    [GRAPHIC] [TIFF OMITTED]63768A.040
    
    [GRAPHIC] [TIFF OMITTED]63768A.041
    
    [GRAPHIC] [TIFF OMITTED]63768A.042
    
    [GRAPHIC] [TIFF OMITTED]63768A.043
    
    [GRAPHIC] [TIFF OMITTED]63768A.044
    
    [GRAPHIC] [TIFF OMITTED]63768A.045
    
    [GRAPHIC] [TIFF OMITTED]63768A.046
    
    [GRAPHIC] [TIFF OMITTED]63768A.047
    
    [GRAPHIC] [TIFF OMITTED]63768A.048
    
    [GRAPHIC] [TIFF OMITTED]63768A.049
    
    Mr. Camp. Thank you very much.
    Dr. Barth.

STATEMENT OF RICHARD P. BARTH, PH.D., PROFESSOR, UNIVERSITY OF 
                  NORTH CAROLINA, CHAPEL HILL

    Mr. Barth. Thank you, Chairman Shaw and honorable committee 
members. My name is Richard Barth and I'm privileged to testify 
today. I have two objectives. First, to describe research which 
indicates that we continue to need new ways to create 
opportunities for children in foster care to get adopted. 
Second, to make the case that adoption services research has 
failed to provide adequate information for policy makers and 
needs a permanent loving home if it is to develop into a more 
useful contributor to society.
    The principal study that I will discuss shows how far we 
have to go in creating equal opportunity for children in foster 
care. Exhibit 1 at the back of my written testimony shows pie 
charts that capture the outcomes from more than 38,000 children 
who entered non-kinship foster care in California between 1988 
and 1992. Young children in non-kinship foster care were chosen 
for this study because their need for adoption--should they not 
be able to return home--is least equivocal. We followed each of 
these children for four years to understand whether or not they 
had been reunified with their biological parents, adopted, or 
remained in foster care.
    For caucasian children, the total percentage of young 
children who are adopted following entry into foster care is 
about 21 percent within four years. If we compare this 
percentage to that of other children, it appears that they are 
significantly more, but not greatly different, in the chance of 
adoption for children of different ethnic or racial groups. The 
percentage for caucasians is about twice as high as the lowest 
group. But this is an over-simplified analysis, which has been 
the kind of analysis too common in the adoption field, which 
could leave us with the impression that we could equalize 
access to adoption by simply improving the ways that we recruit 
same-race adoptive families.
    If we look more closely at these pie charts, we see that 
those children have grossly unequal access to adoption 
depending on their race or ethnicity. Each of these pie charts 
allows us to directly examine the likelihood that children who 
do not go home will be adopted. This can be done by isolating 
the children who went home or had other outcomes from the 
analysis and by comparing the two remaining groups. With this 
method we see that the proportion of caucasian children who are 
adopted is 1.16 times greater than that of those who remain in 
foster care. For Hispanic children, the ratio is less than one, 
it's .79. For American Indian children, it's .52. For African-
American children, only .34. The latter figure means that our 
African-American foster children have only a little better than 
one-fourth the chance of being adopted as do our white foster 
children and less than half the chance of Hispanic foster 
children.
    When we refine this analysis further, as shown in Exhibit 
2, by controlling for age at the time of placement, we observe 
that the situation for African-American children is still worse 
in contrast to other children because they also come into 
foster care at the youngest ages, which should make them more 
likely to be adopted. Yet they are less than one-quarter as 
likely to be adopted.
    It is worth mentioning here too that the odds ratios for 
age are even steeper than they are for race. That is, there are 
larger differences in the likelihood of adoption versus 
remaining in foster care by age than by race, but both are 
major factors in determining adoption.
    Because my other research has convinced me that adoption 
provides a far more satisfactory setting for growing up than 
does long-term foster care, it seems terribly unfair that 
children's access to this valuable resource depends so much on 
their race. Clearly adoption reform like MEPA and its 
amendments are much needed. Previous efforts to improve 
adoption opportunity for all children were simply not 
successful.
    Whereas additional recruitment of minority adoptive parents 
is an important contributor to more placements for African-
American children, as there is no doubt a preference by many 
adoptive parents to adopt a child like them, it is unlikely to 
be sufficient to redress these longstanding imbalances in 
adoption. A successful approach must be broader and include 
ways of engaging a far larger proportion of the American public 
in welcoming foster and adoptive children of all types into 
their homes.
    I expect that MEPA and its amendments will be implemented. 
I appreciate the efforts of this committee to see that they 
are. I expect the implementation to be slow, but I am concerned 
that even at the end of that implementation the gains in 
adoptive placements for America's foster children will be small 
unless we work to better understand the responsiveness of the 
general public to interethnic adoption.
    The only barriers to adoption are not those imposed by 
agencies on families. Some families also impose barriers on 
themselves because they are concerned about how they will be 
perceived if they were to adopt across racial lines. Some of 
them instead go on to adopt children from other continents, 
including South America and Asia. If these barriers are more 
perceived than real, we need the public to know that. In 
general, we simply must have a better understanding of the 
public's attitudes about race and adoption in order to maximize 
the likelihood that children in foster care (who will not be 
going home) can find permanent lifetime families.
    To do this, adoption services research in the United States 
needs a home, preferably a permanent and resourceful one. In my 
written testimony, I discuss some options for adoption 
research. At the rate that we are going, future hearings about 
the Multiethnic Placement Act and the Interethnic Adoption 
Provisions are unlikely to be able to tell us much--the data 
for those hearings will not be powerful or compelling unless 
more is done to frontload the adoption research agenda.
    Wherever it is located, Congress and the administration 
should search diligently to find this permanent home for 
adoption research and begin a systematic approach to funding 
adoption research. They might resolve in so doing that we would 
never again allow our country to go through such a long spell 
during which adoption research is helpless to identify the 
errors of our ways. We had virtually no evidence to inform us 
how badly some children were faring when we made service 
decisions so heavily weighted by race. A generation of foster 
children grew up without permanent homes as a result. We need 
to pay closer attention to what we do in the future through 
MEPA and more saliently, because it's a larger program, to the 
ambitious new Adoption and Safe Families Act. This should be 
done systematically through a comprehensive adoption services 
research program.
    Thank you for your attention.
    [The prepared statement follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.050
    
    [GRAPHIC] [TIFF OMITTED]63768A.051
    
    [GRAPHIC] [TIFF OMITTED]63768A.052
    
    [GRAPHIC] [TIFF OMITTED]63768A.053
    
    [GRAPHIC] [TIFF OMITTED]63768A.054
    
    [GRAPHIC] [TIFF OMITTED]63768A.055
    
    [GRAPHIC] [TIFF OMITTED]63768A.056
    
    [GRAPHIC] [TIFF OMITTED]63768A.057
    
    Chairman Shaw [presiding]. Thank you.
    Professor Kennedy.

  STATEMENT OF RANDALL KENNEDY, PROFESSOR, HARVARD LAW SCHOOL

    Mr. Kennedy. Thank you very much, sir. Whether MEPA and as 
amended will effectively assist real live people or become a 
mere hollow symbol of good intentions depends on enforcement. 
Among the many impediments to enforcement that confront MEPA as 
amended, three stand out.
    The first is simple recalcitrance. In some jurisdictions, 
welfare agencies continue to attempt to delay or prevent 
certain prospective adoptions or foster care placements out of 
a conviction that it is better if possible to place children of 
a given race with adults of the same race. One way to address 
this problem is through education and moral suasion. Members of 
Congress individually and collectively should make it known to 
the public precisely why race matching is bad. As long as 
substantial portions of the public support race matching, 
resistance to MEPA as amended will find refuge and nourishment.
    Second, the open-ended highly discretionary character of 
child placement decisions invites evasion. It is quite clear 
that proponents of race matching are now seeking to sidestep 
the amendments to MEPA by relying upon considerations that are 
not expressly racial, but that are easily made into pretexts 
that camouflage racial decisionmaking. Two of these 
considerations are preferences for relatives and notions of 
cultural competency.
    The first refers to the policy of preferring to place a 
child with an adult to whom he is related as against an adult 
to whom he is unrelated. In some instances, authorities hostile 
to interracial adoption or foster care use this preference to 
preclude such placements. Selecting a same-race arrangement 
with a relative win absent the threat of an interracial 
placement, the decision maker would not have chosen the 
arrangement with the relative.
    This particular mode of resistance to MEPA as amended has 
arisen in the most heart-wrenching contexts in which the 
controversy over interracial adoption has flared. The context 
in which a foster parent bonds with a child of a different 
race, seeks to adopt that child, and is then prevented from 
doing so by child welfare authorities who are hostile to 
interracial adoption. Such authorities select as the adoptive 
parent a relative of the same race as the child, even when that 
relative is not as close to the child as the foster parent and 
will likely prove to be an inferior adoptive parent.
    Another mode of resistance to MEPA as amended takes the 
form of discouraging or preventing interracial adoption or 
foster care by recourse to the notion of cultural competency. 
The idea that children have an established heritage that should 
be nurtured in ways that adults of a different race are 
unlikely to know and perhaps incapable of learning. Some 
observers contend, for example, that white adults should not be 
able to serve as adoptive or foster parents for black children 
unless the white adults can show their cultural competency to 
raise correctly a black child. Evidence of such competency 
might include living in a racially diverse neighborhood, having 
a racially diverse set of friends, engaging in certain 
celebrations, for instance, Kwaanza, knowledge of black 
history, and a willingness to undergo sensitivity training and 
other instruction aimed at enabling the white adult to equip 
the black child with appropriate coping skills and a proper 
African-American identity.
    There are a variety of problems with this notion of 
cultural competency. For one thing, it puts officials in the 
position of attempting to prescribe racial correctness. 
Fortunately, there exists no authoritative criterion by which 
to measure what sort of ideas or conduct can certifiably be 
deemed to be properly black or white or yellow, et cetera. 
African-Americans, for example, like the individuals 
constituting all groups in American society, vary tremendously. 
Many like Gospel music or rap, many do not. Many celebrate 
Kwaanza, many do not. Many live in predominantly black 
neighborhoods, some do not. Many are Christians, many of 
Moslems.
    The idea that public or private child welfare officials 
would homogenize the varied African-American community and then 
impose that homogenized stereotype upon white adults seeking to 
provide children with adoptive homes or foster care is a 
frightening prospect. Worse will is that this dubious concern 
with cultural competency is often nothing more than a pretext 
for race matching, a way to continue indirectly the racial 
steering of needy children.
    A third impediment to the enforcement of MEPA as amended 
stems from the mixed feelings toward the law felt by officials 
within the Federal agency most involved in its implementation, 
the U.S. Department of Health and Human Services. The 
memorandum that Mr. Camp referred to earlier with respect to 
the department's understanding of MEPA shows a real 
ambivalence. In certain parts of that memorandum there is a 
laudable inclination to follow the statute, but there are other 
aspects of that memorandum that quite clearly indicate that the 
department is not following the statute. For instance, there 
are aspects of the memorandum that indicate that the department 
is giving the green light to agencies to continue to take race 
into account in contexts that clearly controvert MEPA as 
amended. That is a problem that really requires the attention 
of this subcommittee. I am very happy that the subcommittee is 
paying attention to this entire issue.
    Thank you very much.
    [The prepared statement follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.058
    
    [GRAPHIC] [TIFF OMITTED]63768A.059
    
    [GRAPHIC] [TIFF OMITTED]63768A.060
    
    [GRAPHIC] [TIFF OMITTED]63768A.061
    
    [GRAPHIC] [TIFF OMITTED]63768A.062
    
    [GRAPHIC] [TIFF OMITTED]63768A.063
    
    [GRAPHIC] [TIFF OMITTED]63768A.064
    
    [GRAPHIC] [TIFF OMITTED]63768A.065
    
    [GRAPHIC] [TIFF OMITTED]63768A.066
    
    Chairman Shaw. Thank you, Professor.
    Mr. Kroll.

  STATEMENT OF JOE KROLL, EXECUTIVE DIRECTOR, NORTH AMERICAN 
       COUNCIL ON ADOPTABLE CHILDREN, ST. PAUL, MINNESOTA

    Mr. Kroll. Mr. Chairman and members of the committee, I 
thank you for inviting me here today. For the record, I would 
like to address a question that Representative Camp asked early 
on. I was alerted yesterday by a staff member of the 
inconsistency of NACAC policy with Federal law in MEPA and 
IEPA, and spoke with my policy committee chair. I haven't 
spoken with the president yet, but we will be amending our 
policy so that it really reflects the practice of our 
organization as currently implemented. I think we probably will 
just take the old one off the Web site until the new one is in 
place, but I think we could probably do that in a short period 
of time.
    I want to talk a bit about our current practice. I have 
just distributed the posters that we had put together as a 
result of the National Adoption Month project that was funded 
under an Adoption Opportunities grant with the collaboration of 
the Dave Thomas Foundation for Adoption. Highlighted on the 
poster are the children from 1997 who have already been placed 
in adoptive homes. One of the things that you will notice is 
the heavy preponderance of African-American children on the 
poster, but you will also notice the heavy preponderance of 
African-American children who have been placed for adoption. 
Sixty percent of the African-American children have been 
placed. Sixty three percent of the children in sibling groups 
have been placed. These are two groups of children who we have 
said in the past are the most difficult to place. I think it's 
clear that when we make the children visible, that we are going 
to find adoptive families.
    We do not have data on all of the races of the parents, but 
we do know for example, that the two little girls from Colorado 
who are featured in the cockpit of an airplane were placed as a 
result of a family seeing the poster in a Wendys, while driving 
through Montana. The family, from Alberta, Canada, is white. We 
do know that. We don't have the statistics on other transracial 
placements.
    The other thing the poster tells us is how important the 
fine work that you did last year with the Adoption and Safe 
Families Act. Many of the older children who have not been 
placed are children who have been in foster care for six, 
eight, and ten years. I think that the changes made in ASFA 
will have an even greater impact than the MEPA and IEPA changes 
on their placement because in the future we will have fewer 
children that are aging in foster care. They will be available 
for adoption within a year or two.
    Going back to my testimony now, I did want to make a point 
related to the guidances issued by the Federal Government. I 
think it's safe to say that I differ with most of the other 
members of the panel. One of the concerns that we have had is 
that they create a great deal of confusion for workers. That on 
the one hand we're saying that social work practice is 
involved. Then in the answers that HHS gave to the GAO report, 
which I incorrectly identified in my text but I'll correct in 
the final version, were very clear. Every time they were asked 
something specific, the answer was no, you can't do that. But 
at the beginning there's I guess the 61-line discussion of 
social work practice. I think in fairness to workers, we have 
to be more clear in terms of what social work practice means.
    The other part of the law that creates a problem for 
agencies is that on one hand we say we want you to actively 
recruit families from the communities that kids come from. That 
translates into recruitment of African-American families, 
Latino families, Native American families. But then you have 
workers in some agencies who are afraid to use those families 
because there are white families who are interested in the same 
children. That kind of confusion and conflict within the law 
needs to be addressed more directly by the department because 
we're saying recruit families, and then we have people who are 
afraid to use those families if they are available.
    The other point that I wanted to make is in terms of 
outcomes. It is very important that we look at the goal of this 
MEPA and &IEPA, and the goal of ASFA. The goal of these acts 
has been to place children. We need to do everything we can 
humanly possible to place children in permanent homes. We need 
to put all our resources there. That should be the measure. 
Because if we start measuring how many transracial adoptions 
there are, we could get caught into a kind of a funny 
situation. I'm assuming, there would be very few, although the 
data is not available to us, white children who are 
transracially adopted. Does that mean that somehow they are 
disadvantaged? I think it is something that we have to take a 
look at.
    In closing, I want to say, if you look at the points I made 
at the end of my testimony that no child should ever have to 
wait for a family, which is Federal policy across the board and 
clearly is our organizational policy, that children should not 
be moved from stable and loving placements for any reasons, 
including racial matching. But there are other reasons that 
children are moved that we also are concerned about, and I hope 
that ASFA will have taken care of. Good foster families who 
challenge the care of their children have kids removed all the 
time. That has nothing to do with race. It has to do with 
practice and supervisory activities. All families of all races 
should have access to children.
    Parents adopting transracially should be made aware of the 
impact of that on their children. I have lived for 22 years in 
a transracial adoptive home. We are a successful transracial 
adoptive home. Our daughter still lives with us. She calls us 
mom and dad. As a young Korean woman, it appears that she will 
remain living with us, as she has adopted some of the practices 
of Korean culture, until she is married. So we have an 
attachment disorder, but it's a positive attachment disorder. 
[Laughter.]
    Finally, I think that the part of MEPA that we haven't 
spent very much time on, the recruitment of families from the 
communities the kids come from, is one that we can't ignore and 
we must continue to be concerned about that issue. Thank you.
    [The prepared statement follows:]


    [GRAPHIC] [TIFF OMITTED]63768A.067
    
    [GRAPHIC] [TIFF OMITTED]63768A.068
    
    [GRAPHIC] [TIFF OMITTED]63768A.069
    
    [GRAPHIC] [TIFF OMITTED]63768A.070
    
    [GRAPHIC] [TIFF OMITTED]63768A.071
    
    [GRAPHIC] [TIFF OMITTED]63768A.072
    
    Chairman Shaw. Thank you. I might say that I think the 
experience I have had with my daughter, that's also an Irish 
tradition. [Laughter.]
    The Members have agreed and in order to go forward with the 
last panel, to submit the questions in writing to this panel 
and to the next panel. So we would appreciate having that 
privilege to submit questions to you and hopefully you can 
respond to us as quickly as your schedule will allow. I want to 
thank this panel. It's been very enlightening. I think it's an 
excellent panel. Thank you very much.
    [Questions addressed to Mr. Nadel, Ms. Simon, and Mr. 
Barth, and their respective answers, follow:]


[GRAPHIC] [TIFF OMITTED]63768A.073

[GRAPHIC] [TIFF OMITTED]63768A.074

[GRAPHIC] [TIFF OMITTED]63768A.075

[GRAPHIC] [TIFF OMITTED]63768A.076

[GRAPHIC] [TIFF OMITTED]63768A.077

[GRAPHIC] [TIFF OMITTED]63768A.078

    Chairman Shaw.
    The next panel that we have, Elizabeth Bartholet, who is a 
professor at Harvard Law School. This is Harvard day I think 
here. We have had Professor Kennedy and now Professor 
Bartholet. Patrick Murphy, who is a public guardian, Cook 
County, Chicago, Illinois, and William Pierce, Dr. William 
Pierce, who is the president of the National Council for 
Adoption in Washington, D.C.
    At the conclusion of your testimony, we will also submit 
questions in writing and ask that you respond to them.
    Professor Bartholet.

STATEMENT OF ELIZABETH BARTHOLET, PROFESSOR, HARVARD LAW SCHOOL

    Ms. Bartholet. Thank you. I would like to thank all the 
committee members for being here having these very important 
hearings.
    I have spent over a decade of my professional life on 
issues of adoption generally and transracial adoption in 
particular. I have spent a lot of this time trying to analyze 
what actual policies and practices are being implemented by 
State agencies, something that is quite different and more 
important than what written policies reflect. I have spent a 
lot of time trying to analyze and understand the destructive 
impact of race-matching policies on children, particularly 
black children, and trying to advocate for change, and 
therefore, trying to monitor the effects of legislation like 
MEPA I and MEPA II, as I'll refer to the Multiethnic Placement 
Act of 1994 and its 1996 Amendments in shorthand.
    I want to applaud this committee. I think that what you are 
doing in these oversight hearings is extraordinarily important 
because I think this legislation is so important to child 
welfare, and particularly to the life prospects of black 
children in our foster care system. I also think it is 
important in terms of what it represents in the elimination or 
attempted elimination of the last vestige of State mandated 
race separatism.
    Enforcement action is vitally important in this area 
because of the extraordinarily deeply entrenched views and 
practices throughout the child welfare system, from the top to 
bottom of HHS, and in child welfare agencies throughout the 
country. I think that without vigorous enforcement action by 
your committee, insisting on enforcement by HHS and others, 
there will be no significant impact of this law, at least in 
the near or perhaps foreseeable future. Race-matching ideology 
is deeply entrenched.
    I think that the 1996 amendments that you passed to MEPA I 
are extraordinarily important. They gave us law that at least 
on paper eliminates the very problematic loophole in MEPA I 
that allowed race as a permissible consideration. I also think 
the mandatory financial penalties written into MEPA II give us 
a real prospect for change. But enforcement action to date has 
been limited. When I listened to Ms. Golden's testimony, I can 
only think that when she claims that 29 States have changed 
their policies, she is referring to changes in written 
legislation and written regulation, which I have to emphasize 
to the committee is the least important aspect of race-matching 
policies in this country.
    When I say I think impact to date is extraordinarily 
limited, what evidence do I have for this, why do I say it? I 
am giving my impressions based on going around the country, 
attending a multitude of conferences, talking to people in 
State agencies, in my own State, Massachusetts, and throughout 
the country, in attempts to both assess what is going on in 
terms of the MEPA legislation and also push for meaningful 
change.
    To categorize what I am seeing and hearing out there, 
first, it's what I refer to in my written comments as the 
deafening silence. As I listen for the sounds of reaction to 
MEPA II, and the impact of MEPA II, what I don't hear is very 
much going on. Now we're talking about a nation in which in 50 
States we had State agencies systematically using race to 
match. That was the name of the game. The single most important 
criterion for figuring out where kids went was to look at the 
race of the child and of the prospective parents and make that 
the first and most important order of business, to put kids 
with same race families.
    If MEPA II was being taken seriously, you would be hearing 
an enormous amount of noise from around the country--screams of 
protest and resistance. You would be getting memoranda from HHS 
on down, from heads of child welfare agencies throughout the 
country, telling social workers to change their practice in 
meaningful ways. That is not happening throughout the country. 
So the fact that mostly it's silence out there, that we got the 
HHS tough sounding ``Guidance'' but almost nothing else is 
extraordinarily telling in itself.
    Second, the noises one does hear, the noises I hear, 
primarily are not anything to do with MEPA enforcement. It's to 
do with resistance and evasion. Let me give some examples. 
There are claims that the law doesn't mean what it says it 
does. It was terrific to hear the Chairman today say that the 
law means that race can't be taken into consideration. That is 
the obvious meaning of the 1996 amendments. But if you listen 
to what child welfare experts and leaders around the country 
are saying to their followers, much of it has to do with claims 
that MEPA II can be read to say that actually race can be taken 
into account as long as it's done in a discretionary way.
    Two, there are regular claims made out there that the main 
purpose and point of the law is actually contained in the 
recruitment provisions, recruitment on a non-discriminatory 
basis. So a message that's being put out to social workers 
throughout the country is the main point of this law is go out 
and recruit minority race families. The obvious implication of 
that is that if you do recruit actively enough you can continue 
to do same race matching without holding kids for intolerable 
periods of time.
    Third, there is code language that's being used--I'm almost 
finished--to instruct social workers to continue doing what 
they are doing. So that there is a lot of talk about how we can 
continue to do, and of course the law wasn't meant to prohibit, 
``good social work practice.'' This is clearly understood and 
meant to convey the sense that good social work practice means 
of course you take race into account because we all know, we 
social workers, that that is what you are supposed to do. 
Cultural competency is I think clearly understood as 
euphemistic code language designed to convey to people that 
they should continue doing the race-matching they have always 
been doing.
    Finally, there are what I categorize in my written remarks 
as the diversionary tactics, the endruns. You see a renewed 
reemphasis on the importance of kinship care because everybody 
knows that if you place with kin, you manage to place with 
same-race families. There are new practices being promoted out 
there, family group decisionmaking, for example, which sounds 
as if it's only about having families make decisions about 
where kids go in conjunction with social workers. The first 
conference I went to on family group decision making, the 
overhead projection said, ``What are the major reasons we want 
to do this? One, to avoid transracial placement.''
    So in conclusion, my sense as I look at what is going on 
today is that it's tremendously familiar from the efforts many 
of us were involved in the 1950s and 1960s to enforce the 
mandate of Brown v. Board of Education. The major difference I 
see is that we don't have today the group of public agencies 
and private organizations involved in the business of enforcing 
the rule of law that we had then, like the NAACP Legal Defense 
Fund. That is why I think this committee's work is so 
important, pushing for some organizational support, because 
without organizational support, there will be no meaningful 
change.
    Thank you very much.
    [The prepared statement follows. Articles are being 
retained in the Committee files.]


[GRAPHIC] [TIFF OMITTED]63768A.079

[GRAPHIC] [TIFF OMITTED]63768A.080

[GRAPHIC] [TIFF OMITTED]63768A.081

[GRAPHIC] [TIFF OMITTED]63768A.082

[GRAPHIC] [TIFF OMITTED]63768A.083

[GRAPHIC] [TIFF OMITTED]63768A.084

    Chairman Shaw. Thank you.
    Mr. Murphy.

 STATEMENT OF PATRICK T. MURPHY, PUBLIC GUARDIAN, COOK COUNTY, 
                       CHICAGO, ILLINOIS

    Mr. Murphy. Thank you. I am the public guardian of Cook 
County, Illinois, which is Chicago and the suburbs. I supervise 
a staff of 300, including 150 lawyers. We act as lawyers for 
abused and neglected children both at juvenile court and then 
in lawsuits against the State of Illinois. I represent the 
bottom of the food chain here. I don't know about the large 
issues. All I can tell you is what goes on on a local level. A, 
no judge and the State agency do not know anything about this 
law. In principle they do, but when it comes down to reality, 
everyone believes that you are supposed to look for a same-race 
family first before you move on to look for a different race 
family. It is much like in the old days when real estate agents 
would direct blacks into a black neighborhood and away from a 
white neighborhood. That is basically what goes on in the child 
welfare arena. They direct kids into black homes.
    I was in a home a few years ago where there were six 
infants under the age of one lined up against the wall in a 
foster home. The foster parents were trying to do a good job. 
They were decent people. But you can't tell me that you 
couldn't take those six kids and put them in six separate homes 
and that they wouldn't do much better than being in a foster 
home that was really an old fashioned orphanage. But from the 
agency's point of view, they are able to keep the black kids 
together in a black culture. You can see where they are coming 
from.
    We have a temporary shelter for infants in Chicago. A few 
years ago there were 329 kids there, 300 black, 19 white, the 
rest other race. After six months, there were 75 black, two 
white. After a year, 20 black, no whites. In other words, the 
white kids get placed, same race homes. The blacks don't. What 
happens is we have an enormous white pool, not only in Chicago, 
but L.A. and New York are the same, and a very tiny black pool 
for the black youngsters. So you just don't have the resources.
    There was another case I had where, this was after the 1994 
act was passed, before the 1996 act was passed, a kid named 
Javonte was skull fractured, six months old. The agency went 
through 21 attempts to place the kid in black homes. Then a 
white foster mother came forward and said I'll take the kid. 
They actually charted in their charts, staff advised the woman 
that the agency is still seeking same-race placement as the 
possibility has not been exhausted after 21 attempts and return 
home goal is still there. Ultimately they did get the kid in a 
black home. This was after your 1994 act was passed. No matter 
what the woman from HHS says, it ain't being followed.
    It reminds me of my young days as a prosecutor when the 
judge would say to some cop who brought in some guy which was 
clearly a bad search, say ``Don't do that again, officer'' and 
then he'd wink at him. That is what is going on with HHS. If 
you folks in Washington sit here and believe it's anything 
different, you are living in a different world.
    I had a case involving a 16 year old black girl who was 
sent up to Wisconsin because she had been raped in foster care. 
She had some sexual issues. When it came time for her to be 
released, she said ``I don't want to go back to Chicago. I want 
to stay here.'' She did not want to deal with all the bad stuff 
she had gone through. The agency went up there and actually 
said no, you have to go back to Chicago because this is a white 
area you are living in here and a white culture and you have 
got to go back to your black culture. Ultimately we brought the 
case back before a judge, who incidently was African-American, 
and ringed the agency out and said you can't do this thing. The 
kid did come back, but we filed a beef with HHS about it. What 
did they do? They come back and say yes, there probably was 
race discrimination here, but the consideration--then they gave 
the State agency a guideline. They said in the future, if you 
are going to discriminate on the basis of race, you have got to 
do it in a narrowly tailored way to advance the child's best 
interest and be made as an individualized determination. Now 
come on. Any person with any reasonable intelligence is going 
to say well the next time we do it, we're going to have an 
individualized plan and say this is all part of it. That is 
what is going on.
    So that my suggestion is that the agency--Congress has to 
come out and tell HHS you have got to get the word that you can 
not discriminate. I am not one that is going to argue that a 
white home is no different than a black home for a black kid. I 
think under most circumstances I would rather have a same race 
placement. But we have to look at the reality. The number of 
homes are not there. I went through the figures. In Cook 
County, for every black kid that's available for placement 
there are 50 other black people, men, women and children. For 
every white kid that's available for placement, there's 800 
other white men, women, and children. So the odds are stacked 
against the black kids. Now we go to sibship foster care. It 
has saved foster care. It is a great idea. I am not against it. 
But we are stuffing kids frequently into very bad sibship 
foster homes. Most of the abuse we see in foster care comes out 
of relative foster homes. That is because it's not unusual for 
a mother or father to abuse a kid that comes from a highly 
dysfunctional family. So we take the kid away from 
dysfunctional mom, give him to dysfunctional aunt. Then we say 
gee, I wonder why the kid got raped in foster care. So that we 
have to be very careful of that as well.
    I had another example of a black girl--a white girl placed 
in a black home who was doing extraordinarily well. Again, the 
agency you could see tried to use the individual treatment 
plan. They said the girl should be removed from this black 
home. She wanted to stay. She was six years old. The black 
couple were wonderful people. We wanted her to stay. They said 
listen, they sent two social workers down. You could see where 
they are coming from. They interviewed the black parents on 
only one occasion, the white parents on five occasions. Never 
interviewed the black natural children, interviewed the white 
natural children on two occasions, and said the girl should be 
brought back, for among other reasons, because she eats her 
vegetables, picks up all her toys, and is doing extraordinarily 
well in school that hints she is trying too hard and that must 
mean she really wants to get out of the home.
    We sit back and we say well this is absurd. But that is the 
kind of stuff we deal--I see my time out, we deal with at the 
bottom of the food chain. I just ask that you get the word 
through to those folks. If it goes on like this in Chicago, 
we're talking 6 million people in Cook County who know what is 
going on, it's everywhere. Thank you.
    [The prepared statement and attachments follow. Additional 
articles are being retained in the Committee files.]


[GRAPHIC] [TIFF OMITTED]63768A.085

[GRAPHIC] [TIFF OMITTED]63768A.086

[GRAPHIC] [TIFF OMITTED]63768A.087

[GRAPHIC] [TIFF OMITTED]63768A.088

[GRAPHIC] [TIFF OMITTED]63768A.089

[GRAPHIC] [TIFF OMITTED]63768A.090

[GRAPHIC] [TIFF OMITTED]63768A.091

[GRAPHIC] [TIFF OMITTED]63768A.092

[GRAPHIC] [TIFF OMITTED]63768A.093

[GRAPHIC] [TIFF OMITTED]63768A.094

[GRAPHIC] [TIFF OMITTED]63768A.095

[GRAPHIC] [TIFF OMITTED]63768A.096

[GRAPHIC] [TIFF OMITTED]63768A.097

[GRAPHIC] [TIFF OMITTED]63768A.098

[GRAPHIC] [TIFF OMITTED]63768A.099

[GRAPHIC] [TIFF OMITTED]63768A.100

[GRAPHIC] [TIFF OMITTED]63768A.101

[GRAPHIC] [TIFF OMITTED]63768A.102

[GRAPHIC] [TIFF OMITTED]63768A.103

[GRAPHIC] [TIFF OMITTED]63768A.104

[GRAPHIC] [TIFF OMITTED]63768A.105

[GRAPHIC] [TIFF OMITTED]63768A.106

[GRAPHIC] [TIFF OMITTED]63768A.107

[GRAPHIC] [TIFF OMITTED]63768A.108

[GRAPHIC] [TIFF OMITTED]63768A.109

    Chairman Shaw. Thank you, Mr. Murphy.
    And an old friend of this Committee, Dr. Pierce.

STATEMENT OF WILLIAM L. PIERCE, PRESIDENT, NATIONAL COUNCIL FOR 
                            ADOPTION

    Mr. Pierce. Thank you very much, Mr. Chairman. Thank you 
for hanging in there with us and with this issue. We really 
appreciate your having this oversight hearing.
    I have some very positive new and encouraging information 
to share with you today about this issue. I think many of us 
have kind of a gut feeling that Americans do care a lot about 
this issue and are very supportive of it. But there has been a 
recent opportunity for us to find out exactly how Americans do 
feel. On August 2 there was a cover story in Parade Magazine 
entitled It's About Love. It told the story of four families 
that adopted transracially. As Senator Metzenbaum, who is a 
real hero on this issue, mentioned to you earlier, there is a 
little two-inch box in there. They said if you want more 
information, contact the National Council For Adoption, our 
organization.
    As of September 8, we have received approximately 10,000 
unduplicated contacts. That includes mail, phone calls, and E-
mails. Of those 10,000, eight, eight were negative or in any 
way questioning transracial adoption. We had African-American, 
Latino-Hispanic Asian-American, Native American, inter-racially 
married families calling the volunteers that were staffing the 
phones. The callers were ecstatic at the good news, 
tremendously supportive. So the American people are absolutely 
in favor of what is going on with transracial adoption.
    There was also a side to the response which we did not 
anticipate. That is, many people volunteered that they had had 
a difficult time trying to adopt. They had been turned down 
because they wanted to adopt children of another race. They 
were told there were no children available to be adopted from 
other races. We had volunteered comments from residents of 29 
States, saying that they were being stiff-armed by the public 
agency. I have a list of some actual quotes from the people who 
called or wrote us that I am submitting for the record. A 
tremendous span of comments from across the country complained.
    I would also like to comment just briefly on the issue that 
you raised, Mr. Camp, in respect to investigations by the 
Office of Civil Rights. You raised a question about the Boston 
editorial. In that particular case, Mr. Camp, indeed the Office 
of Civil Rights investigated, but the reason that they 
investigated is that the Lapierre family filed a complaint. In 
that particular issue, there was Rhode Island State money 
involved. In that particular issue, the couple, who is a blue-
collar low-income family, has incurred more than a $50,000 
legal bill just to fight the State to require the State to 
complete the State's original plan, which was to allow this 
family to be able to adopt this child. The case is still in 
court.
    We are also fighting a Maryland judge who said from the 
bench that children should not be adopted transracially. I 
refer to the Cornilous Pixley case here in Montgomery County. 
In the Pixley case, again HHS said well, we don't think we have 
any jurisdiction. I think the question should be asked was 
there any public money spent in that case? I think there was. I 
think another question to be asked is, Congress also passed 
another piece of legislation called the Child Abuse Treatment 
and Prevention Act, and that was certainly in place in 
Maryland, and should have been applied.
    The fact is that all across the country people want to 
adopt. There are lots of children waiting for families. The 
American people are positive about transethnic adoption, they 
know the positive outcome. It's up to you, I respectfully 
submit, to please take the steps to require HHS and the States 
to start obeying the law and get with the rest of the American 
people. Thank you.
    [The prepared statement and attachments follow:]


    [GRAPHIC] [TIFF OMITTED]63768A.110
    
    [GRAPHIC] [TIFF OMITTED]63768A.111
    
    [GRAPHIC] [TIFF OMITTED]63768A.112
    
    [GRAPHIC] [TIFF OMITTED]63768A.113
    
    [GRAPHIC] [TIFF OMITTED]63768A.114
    
    [GRAPHIC] [TIFF OMITTED]63768A.115
    
    [GRAPHIC] [TIFF OMITTED]63768A.116
    
    [GRAPHIC] [TIFF OMITTED]63768A.117
    
    [GRAPHIC] [TIFF OMITTED]63768A.118
    
    [GRAPHIC] [TIFF OMITTED]63768A.119
    
    [GRAPHIC] [TIFF OMITTED]63768A.120
    
    [GRAPHIC] [TIFF OMITTED]63768A.121
    
    [GRAPHIC] [TIFF OMITTED]63768A.122
    
    [GRAPHIC] [TIFF OMITTED]63768A.123
    
    Chairman Shaw. Thank you, Dr. Pierce. As I said to Dr. 
Golden I believe it was, that we will be having more hearings 
next year on this matter. We do want to start looking at the 
numbers that are out there as to what effect this has had on 
getting these, particularly these minority kids, out of foster 
care.
    I want to thank this panel as well as the other panels. I 
think it's been a wonderful hearing. Dave Camp has turned 
around congratulating our staff on a great hearing, so you know 
how sincere that is. We very much appreciate it. As the 
previous panel, we will submit questions in writing and request 
that you respond to them.
    [A question addressed to Ms. Bartholet, and her response, 
follows:]
[GRAPHIC] [TIFF OMITTED]63768A.124

    Thank you very much. The hearing is concluded.
    [Whereupon, at 12:43 p.m., the hearing was adjourned, 
subject to the call of the Chair.]
    [Submissions for the record follow:]


    [GRAPHIC] [TIFF OMITTED]63768A.125
    
    [GRAPHIC] [TIFF OMITTED]63768A.126
    
    [GRAPHIC] [TIFF OMITTED]63768A.127
    
    [GRAPHIC] [TIFF OMITTED]63768A.128
    
    [GRAPHIC] [TIFF OMITTED]63768A.129
    
    [GRAPHIC] [TIFF OMITTED]63768A.130
    
    [GRAPHIC] [TIFF OMITTED]63768A.131
    
    [GRAPHIC] [TIFF OMITTED]63768A.132
    
    [GRAPHIC] [TIFF OMITTED]63768A.133
    
    [GRAPHIC] [TIFF OMITTED]63768A.134
    
    [GRAPHIC] [TIFF OMITTED]63768A.135
    
    [GRAPHIC] [TIFF OMITTED]63768A.136
    
    [GRAPHIC] [TIFF OMITTED]63768A.137
    
    [GRAPHIC] [TIFF OMITTED]63768A.138
    
    [GRAPHIC] [TIFF OMITTED]63768A.139
    
    [GRAPHIC] [TIFF OMITTED]63768A.140
    
    [GRAPHIC] [TIFF OMITTED]63768A.141
    
    [GRAPHIC] [TIFF OMITTED]63768A.142
    
    [GRAPHIC] [TIFF OMITTED]63768A.143
    
    [GRAPHIC] [TIFF OMITTED]63768A.144
    
    [GRAPHIC] [TIFF OMITTED]63768A.145
    
    [GRAPHIC] [TIFF OMITTED]63768A.146
    
    [GRAPHIC] [TIFF OMITTED]63768A.147
    
    [GRAPHIC] [TIFF OMITTED]63768A.148
    
    [GRAPHIC] [TIFF OMITTED]63768A.149
    
    [GRAPHIC] [TIFF OMITTED]63768A.150
    

</pre></body></html>
